Case: 18-5323

Document: 114-2

Filed: 11/17/2020

Page: 1

(2 of 7)

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0655n.06
No. 18-5323
UNITED STATES COURT OF APPEALS f
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

t

Plaintiff-Appellee,
v.
STANFORD R. COLEMAN,
Defendant-Appellant.

FILED
Nov 17, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE EASTERN
DISTRICT OF KENTUCKY

Before: KETHLEDGE, DONALD, and LARSEN, Circuit Judges.
KETHLEDGE, Circuit Judge.

Stanford R. Coleman, a recidivist drug offender,

represented himself during his jury trial for conspiracy to distribute oxycodone. The jury found
him guilty. We affirm his conviction and sentence.
I.
For at 1 ;ast two years, Coleman supplied local dealers in Montgomery Cou ity, Kentucky
with thousands of oxycodone pills. He regularly drove from his home in Atlanta, Georgia, to
Mount Sterling, Kentucky, where he would stay at the Fairfield Inn for several days and distribute
his supply. He primarily worked through Lisa Crowe, who bought between 100 and 200 doses of
oxycodone at a time and then resold them to street-level dealers in tire area. Local and federal
investigators identified Crowe’s house as a “hot spot” and began making controlled purchases
from Crowe and her dealers to move up the supply chain to the source. The investigation led
authorities to Coleman.

Case: 18-5323

Document: 114-2

Filed: 11/17/2020

Page: 2

No. 18-5323, United States v. Coleman
A grand jury indicted Coleman on one count of conspiracy to distribute pills containing
oxycodone, in violation of 21 U.S.C. §§ 841(a)(1), 846. Coleman’s court-appointed counsel and
the government soon expressed concerns about Coleman’s competency to stand trial. The district
court ordered a psychiatric evaluation and found Coleman competent to proceed.
Coleman insisted that he represent himself at trial. The court held a Faretta hearing to
determine Coleman’s competency to do so, warning Coleman that, without a law degree, he would
be in the wilderness—dropped into the “bush of Alaska[,]” where “[i]t’s going to be 20 degrees
below zero pretty soon.” Coleman was undeterred. The court allowed Coleman to proceed pro se
but appointed standby counsel as well.
At trial, the jury convicted Coleman on the conspiracy count. The district court sentenced
him to 340 months’ imprisonment. This appeal followed.

n.
A.
Coleman challenges his conviction on several grounds. First, he argues that the district
court violated the Speedy Trial Act when it “generally” continued his trial date for him to undergo
a c ompetency evaluation, resulting in a ten-week delay. But Coleman never moved for dismissal
before trial, which means he waived any right to dismissal under the Act. See 18 U.S.C.
§ 3162(a)(2); United States v. Brown, 498 F.3d 523, 529 (6th Cir. 2007).
Second, Coleman argues that the district court should have allowed him to correct a mistake
- that Coleman says he made in exercising his peremptory strikes. The parties exercised those strikes
by submitting the numbers of the jurors they each wished to strike. After the parties did so,
Coleman claimed that he had submitted a wrong number and thus, as to that number, had struck
the wrong juror—a mistake that Coleman blamed on stand-by counsel, who Coleman said gave

-2-

(3 of 7)

Case: 18-5323

Document: 114-2

Filed: 11/17/2020

Page: 3

No. 18-5323, United States v. Coleman
him the wrong number for one of the strikes. The district court refused to allow Coleman to correct
the putative error.
We review the district court’s decision for an abuse of discretion. See United States v.
Gibbs, 182 F.3d 408, 435 (6th Cir. 1999). Coleman contends—without any authority—that the
district court violated Criminal Rule 24 when the court refused to allow him to correct his alleged
mistake. But Rule 24 required only that Coleman receive eleven peremptory challenges (ten for
the petit jury, one in selecting an alternate juror). United States v. Martinez-Salazar, 528 U.S. 304,
315 (2000). And Rule 24 otherwise did not require the district court to allow Coleman to change
any of his strikes after seeing which jurors the government had struck. The court did not abuse its
discretion.
Third, Coleman argues that the district court violated his Sixth Amendment right to a jury
representing a “fair cross section of the community[J” see Taylor v. Louisiana, 419 U.S. 522, 527
(1975), when it used voter-registration lists to draw potential jurors. But we have already rejected
that argument. See United States v. Odeneal, 517 F.3d 406,412 (6th Cir. 2008).
Fourth, Coleman argues, again without relevant authority, that the district court should
have sua sponte commenced “a more expansive inquiras to whether Coleman himself had
received a police detective’s investigative report. During cross-examination of the detective,
Coleman asked to see the report and to present it to the jury. The court told Coleman that he could
use the report only to question the detective because it included inadmissible hearsay. Coleman
then said he did not have the. report. The court asked the government whether it had provided this
discovery to Coleman. The government said it had provided “full discovery” to Coleman’s counsel
shortly after Coleman’s arrest; Coleman said he had not received the report, and then said, “that’s

-3-

(4 of 7)

Case: 18-5323

Document: 114-2

Filed: 11/17/2020

Page: 4

No. 18-5323, United States v. Coleman
okay. I’ll move on.” Suffice it to say that we review these events only for plain error and that
Coleman has shown none.
Fifth, Coleman argues that ATF Special Agent Robert Maynard improperly offered opinion
testimony about a letter Coleman had sent Maynard while detained after his arrest. Specifically,
at trial, the government asked Maynard to read aloud one sentence from the letter: “My way of
thinking was messed up, but I want the opportunity to accept my responsibility and do one good
deed.” Coleman objected on Fifth Amendment grounds, asserting that he would need to testify to
explain the letter. The court overruled the objection on the ground that Coleman’s statement was
admissible as a statement made by a party-opponent after Coleman had been advised of his
Miranda rights. See Fed. R. Evid. 801(d)(2)(A).
When questioning resumed, however, the government asked Maynard not merely to recite
the sentence, but to interpret it:
Q.
A.
Q.
A.
Q.
A.

He says he wants to accept responsibility?
Correct.
What did you interpret that to mean, sir?
To plead guilty.
What about in regards to the oxycodone investigation?
To accept his responsibility for ft e drugs that he trafficked to Central Kentucky.

Coleman now argues that Agent Maynard’s testimony amounted to opinion testimony as a
lay witness. Since Coleman did not object on that ground during trial, we again review his
argument for plain error. See United States v. Young, 847 F.3d 328, 349 (6th Cir. 2017); see Fed.
R. Evid. 103(a). Under plain-error review, the defendant must show “obvious or clear” error that
affected the defendant’s “substantial rights” and “the fairness, integrity, or public reputation of the
judicial proceedings.” United States v. Vonner, 516 F.3d 382, 386 (6th Cir. 2008).

-4-

(5 of 7)

Case: 18-5323

Document: 114-2

Filed: 11/17/2020

Page: 6

No. 18-5323, United States v. Coleman
attempts by the court to redirect his arguments to issues relevant to mitigation. The court therefore
found that “[y]ou haven’t taken this proceeding seriously. This has all been a joke to you.”
That finding did not unfairly surprise Coleman, since it was the result of his conduct during
the hearing itself. And the district court based its sentence on careful consideration of the
18 U.S.C. § 3553(a) factors. The court noted that Coleman had spent most of his adult life in
prison for drug trafficking, yet had always returned to the same kind of criminal conduct upon
release. And at the time of sentencing, Coleman still had an active warrant for a parole violation.
The court found a “[vjery strong likelihood, almost a certainty, that when released ... [Coleman
will] recidivate.” Moreover, Coleman “prey[ed]” on a vulnerable population and sold substantial
quantities of “poisons” in the community, without regard for his victims or the law. The court
found that Coleman had treated his sentencing as a “joke” when he refused to address the important
issues in his case or the substantial prison sentence he faced. There was no unfair surprise.

The district court’s judgment is affirmed.

-6-

(7 of 7)

Case No. 18-5323
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
STANFORD R. COLEMAN, aka Tyrone Coleman, aka Pete Coleman, aka Kenneth W. Fulford,
aka Keith D. Simmons
Defendant - Appellant

BEFORE: KETHLEDGE, DONALD, and LARSEN, Circuit Judges.

Upon consideration of the petition for rehearing (titled “Appellant Stanford Coleman’s
Motion to Recall the Mandate”) and motion to stay the mandate filed by the Appellant,
It is ORDERED that the petition for rehearing and motion to stay the mandate, are hereby
DENIED.

ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

Issued: December 17, 2020

